           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

             OFFICE OF
DISABILITY ADJUDICATION AND REVIEW
    HEARING REQUEST DISMISSALS

    December 2010   A-07-10-20171




   EVALUATION
     REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                            SOCIAL SECURITY
MEMORANDUM

Date:      December 14, 2010                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Office of Disability Adjudication and Review Hearing Request Dismissals
           (A-07-10-20171)


           OBJECTIVE
           Our objective was to provide the Social Security Administration (SSA) with
           recommendations to correct the weaknesses identified in our July 2010 Congressional
           Response Report: Office of Disability Adjudication and Review Hearing Request
           Dismissals (A-07-10-21049). The objective of that review was to address Senator
           Claire McCaskill’s request regarding Office of Disability Adjudication and Review
           (ODAR) hearing request dismissals. Specifically, we examined dismissal rates and
           determined whether ODAR followed applicable laws, policies, and procedures in
           dismissing hearing requests.

           BACKGROUND
           ODAR is responsible for holding hearings and issuing decisions as part of SSA’s
           process for determining whether a person may receive benefits. ODAR directs a
           nationwide field organization staffed with administrative law judges (ALJ) who are
           tasked with conducting impartial hearings and making decisions on appealed
           determinations involving Old-Age, Survivors and Disability Insurance (Title II) benefits
           and Supplemental Security Income (Title XVI) payments.

           Regulations specify conditions under which an ALJ may dismiss a claimant’s request for
           hearing (see Appendix C). 1 In Fiscal Year (FY) 2009, ODAR issued dispositions on
           660,842 hearing requests, of which 103,071 (16 percent) were dismissals.




           1
               20 C.F.R. §§ 404.957 and 416.1457.
Page 2 - The Commissioner

In an August 4, 2009 letter, Senator McCaskill requested that we review dismissals of
hearing requests to ensure disabled individuals are afforded the rights and protections
required by law and regulations. The Senator also requested we determine whether
there were any unusual dismissal trends by individual ALJs or by regions. We issued
our report on Office of Disability Adjudication and Review Hearing Request Dismissals
(A-07-10-21049) to Senator McCaskill on July 14, 2010.

For our review, we analyzed selected hearing request dismissals to determine whether
there was documentation in the case folder to support the dismissal. In addition, we
examined dismissal rates by region, hearing office, and ALJ.

RESULTS OF REVIEW
We reviewed three dismissal types to determine whether ODAR followed applicable
laws, policies, and procedures in dismissing hearing requests. First, we analyzed ALJ
dismissals for untimely hearing requests, as requested by Senator McCaskill. In
addition, we reviewed the two most prevalent dismissal types: abandonment and
withdrawal. 2

We found that there were areas where improvements could be made for dismissing
hearing requests. Improvements were needed most in the area of untimely hearing
request dismissals.

•     For untimely hearing request dismissals, our review disclosed cases where
      dismissals were not (1) appropriate, (2) supported by ODAR requests for claimants’
      explanations for untimely filing, (3) supported by an ALJ rationale, or (4) processed
      timely.

•     For abandonment dismissals, we found cases where the dismissals were issued
      without the necessary attempts to contact claimants documented in the case folders.

•     For withdrawal dismissals, we found one case where the claimant’s case folder did
      not contain evidence the claimant or the claimant’s representative requested the
      hearing request be withdrawn.

Our analysis of dismissal rates identified wide variances among ODAR regions, hearing
offices, and ALJs. ODAR stated that scientific or statistical data do not exist to support
an explanation of dismissal rate variances. Although ODAR stated economic and
demographic factors may explain the variances, ODAR did not expand on those factors
or how they impact variances in dismissal rates.




2
    See Appendix C.
Page 3 - The Commissioner

UNTIMELY HEARING REQUEST DISMISSALS
We reviewed 50 cases dismissed in FY 2009 where ODAR determined the claimant
filed the hearing request untimely; that is, not within the prescribed number of days after
the prior determination or decision. 3,4 Our review disclosed cases where dismissals
were not

    •   appropriate,
    •   supported by ODAR requests for claimants’ explanations for untimely filing,
    •   supported by an ALJ rationale, or
    •   processed timely.

Dismissals Were Not Appropriate

In 2 of the 50 untimely hearing request dismissals we reviewed, it appeared the ALJ
should not have issued an untimely hearing request dismissal.

•   One claimant filed the hearing request timely (18 days after the denial determination)
    yet the ALJ issued an untimely hearing request dismissal. 5 The claimant appealed
    the dismissal to the Appeals Council, which remanded the decision back to the ALJ.
    The ALJ subsequently issued a fully favorable decision. Because the ALJ initially
    issued a dismissal, the claimant waited an additional 393 days to receive an
    allowance decision.



3
  HALLEX I-2-0-50.C. ODAR generally considers a hearing request timely filed if it is received within
65 days of the prior determination. However, if a request is not received within the 65-day period, but the
U.S. Postal Service stamp cancellation or postmark shows that it was mailed within that period, the
postmark is used, and the request is considered filed in a timely manner. If a request is received by mail
within 70 days of the date of the determination or decision, and the postmark is unreadable or there is no
postmark, the request is considered timely filed. HALLEX I-2-0-60. Furthermore, ODAR has established
a policy by which, if a claimant files an untimely hearing request but fails to request an extension of time
or provide a good cause explanation for the late filing, the hearing office sends the claimant a letter
requesting an explanation for the late filing.
4
  Of the 50 untimely hearing request dismissals we reviewed, 30 claimants filed new applications for
benefits. Of the 30 claimants, 7 were allowed benefits, 6 were denied, and 17 had decisions pending at
the time of our review. In addition, four claimants appealed the dismissal to the Appeals Council. One
claimant’s case was remanded back to the ALJ who allowed benefits (this case is discussed later in this
report as an inappropriate dismissal). Two claimants’ decisions were denied by the Appeals Council, and
one claimant had a decision pending at the time of our review.
5
  During our review, we found the hearing request forms did not consistently include the date the claimant
signed the form or the date the hearing office received the form. In addition, when present, the dates on
the hearing request forms did not always correspond with the hearing request dates recorded in ODAR’s
Case Processing and Management System (CPMS). Therefore, any analysis of a hearing request date is
based on the date referenced in the Order of Dismissal signed by the ALJ and issued to the claimant.
Every Order of Dismissal we reviewed included a hearing request date, and that date was accurate when
compared to the hearing request form or the CPMS data if the hearing request form was not dated.
Page 4 - The Commissioner

•     Another claimant filed the hearing request untimely (112 days after the denial
      determination). However, on the hearing request, the claimant alleged she was not
      notified of her denial within the 65-day timeframe to file an appeal. After the
      dismissal was issued, the claimant provided additional evidence to the ALJ that the
      SSA did not inform her of her denial until 112 days after the denial determination.
      Given the new evidence, the ALJ conducted a hearing and issued a fully favorable
      decision. 6 We could not determine whether the ALJ knew, or should have known, of
      the claimant’s situation before issuing the dismissal. However, the circumstances
      surrounding the dismissal caused the claimant to wait an additional 145 days to
      receive an allowance decision.

Dismissals Were Not Supported by ODAR Requests for Claimants’ Explanations
for Untimely Filing

For 7 of the 50 untimely hearing request dismissals we reviewed, there was no
evidence in the claimants’ case folders that ODAR requested an explanation for late
filing from the claimant (good cause). 7 Therefore, we could not determine whether
these claimants were afforded the rights granted to them by ODAR’s policy. According
to ODAR, when the field office receives an untimely filed hearing request, the field office
is instructed to obtain a written statement from the claimant explaining why they filed
late. 8 This statement is forwarded to the hearing office for an ALJ to determine whether
there is good cause for missing the deadline. If the field office does not obtain the
written statement, the hearing office is required to send the claimant a letter requesting
an explanation for late filing. 9

We recommend that SSA remind hearing office employees to send claimants a letter
requesting an explanation for late filing, when required, and document in the claimant’s
case folder that the letter was sent.




6
  In technical comments to our draft report, SSA alleged that the claimant was notified of her denial within
the 65-day timeframe to file an appeal. However, according to information documented in the electronic
folder, the ALJ vacated the dismissal because the claimant was not notified within the 65-day timeframe.
7
 According to ODAR, all communication at the hearing level should be associated with a claimant’s file.
This includes notices sent to the claimant and documentation received by the hearing office. Other
contact with the claimant, via telephone or from personal visit, that could have an impact on the case
should be documented on a Report of Contact and placed in the file.
8
    SSA, POMS GN 03101.020.A.1 and B.1, DI 12010.002, and SI 04030.020.A.1.c.
9
  HALLEX I-2-0-60.C. The hearing office also sends a request for explanation for late filing if the hearing
request is filed at the hearing office and does not include an explanation. However, according to ODAR,
the majority of hearing requests are filed at a field office and not a hearing office.
Page 5 - The Commissioner

Dismissals Were Not Supported by an ALJ Rationale

In 3 of the 50 untimely hearing request dismissals we reviewed, we could not determine
whether the ALJ considered the claimant’s good cause explanation. Specifically, the
ALJ did not state in the Order of Dismissal why the claimant did not establish good
cause for missing the deadline to request a hearing. ODAR’s policy requires that ALJs
include a complete rationale in the Order of Dismissal explaining why the ALJ found that
the claimant had not shown good cause for late filing. 10

For example, for these three untimely hearing request dismissals, we would have
expected to see a rationale similar to one in another case we reviewed. In that case,
the claimant filed his hearing request nearly 5 months late, stating he had not read the
denial notice carefully and thought he had 1 year to appeal. In the Order of Dismissal,
the ALJ gave a rationale for issuing the dismissal stating, “The fact that the claimant did
not read his Notice of Disapproved Claim carefully does not constitute good cause for
untimely filing. The claimant is well educated (3 years of college) and clearly had the
ability to read the Notice and to follow the simple instructions provided in order to file an
appeal in a timely manner.”

We recommend that SSA remind ALJs to ensure hearing request dismissals are
supported by complete rationales explaining why the ALJ found that the claimant had
not shown good cause for late filing.

Dismissals Were Not Processed Timely

For the 50 untimely hearing request dismissals
we reviewed, ODAR took between 6 and                                        Table 1
                                                               Days Between Hearing Request Date
637 days to issue the dismissal to the claimant
                                                                     and Dismissal Issuance
(see Table 1). In fact, more than half the                      Number of Days         Number of Cases
dismissals took more than 60 days. To identify                 30 days or less             11
reasons for delays in processing untimely                      31-60                       12
hearing request dismissals, we reviewed the                    61-90                         8
10 cases that took more than 120 days from the                 91-120                        9
hearing request date to the dismissal date. We                 More than 120 days          10
                                                               Total                       50
found the following.




10
   20 CFR §§404.911 and 416.1411. HALLEX I-2-0-60, I-2-4-5.B, and I-2-4-15.B.3.b. According to
ODAR, a complete rationale contains the reason why the case meets the criteria for dismissal. If the
claimant files a request for Appeals Council review of the dismissal, a well articulated rationale will
provide the Council with the ALJ’s reasoning. It will be the basis on which to apply the review standards
of substantial evidence and abuse of discretion.
Page 6 - The Commissioner

•     Eight cases sat in the hearing office from 61 to 564 days before they were assigned
      to an ALJ for a dismissal decision. ODAR policy states cases that appear to meet
      the criteria for dismissal should be immediately assigned to an ALJ. 11 However,
      according to ODAR, cases may not be assigned to ALJs immediately because
      hearing office staff must first screen all cases to identify those that may meet the
      criteria for dismissal. Cases identified as possible dismissals may then need further
      development. For example, hearing office staff may need to request explanations
      from the claimants for filing the hearing requests untimely.

•     One case was assigned to an ALJ within 28 days of receipt in the hearing office;
      however, the dismissal was not issued for an additional 126 days. According to
      ODAR, under ideal conditions, it should take approximately 1 week for the ALJ to
      determine whether to dismiss a case. There are many unusual cases, however, and
      ALJs may need more time to adequately address the unique factors of each one.

•     One case was not recorded in ODAR’s CPMS as received from the SSA field office
      until 92 days after the claimant signed the hearing request; however, upon receipt,
      ODAR processed the case in 47 days. SSA policy instructs field offices to submit
      hearing requests to hearing offices immediately. 12

According to ODAR, a specific timeframe for processing untimely hearing request
dismissals has not been established because each case has unique factors. In
addition, ODAR stated that processing time can be affected by the administrative
process as a whole, including the (1) circumstances of the hearing office, such as
workload and staffing; and (2) facts of the specific case, since some cases may be
ready for immediate processing while others require additional development.

We recommend that SSA establish controls to ensure hearing requests that appear to
meet the criteria for dismissal are assigned to ALJs immediately for timely action.

ABANDONMENT DISMISSALS
We reviewed 50 cases dismissed in FY 2009 because the claimant abandoned the
hearing, that is, the claimant did not appear at the scheduled hearing. 13,14 For seven
cases, the claimants’ case folders did not contain evidence that ODAR attempted to
11
     HALLEX I-2-1-55.D.8.
12
     POMS GN 03103.020.E.
13
  HALLEX I-2-4-25.A. An ALJ may dismiss a hearing request when neither the claimant who requested
the hearing nor the claimant’s representative appears at a scheduled hearing and neither shows good
cause for the absence.
14
   Of the 50 abandonment dismissals we reviewed, 8 claimants filed a new application for benefits. Four
claimants were denied benefits and four claimants had decisions pending at the time of our review. In
addition, two claimants appealed the dismissal to the Appeals Council. Both of these claimants’ cases
were remanded back to the ALJ and had decisions pending at the time of our review.
Page 7 - The Commissioner

contact the claimants, as required. These seven claimants did not return the form
acknowledging receipt of the hearing notice. 15 This form requests that claimants
provide their intentions for attending the hearing. 16 The ALJ may dismiss the hearing
request if the claimant has not returned the acknowledgment notice, and the claimant
did not provide good cause for failing to appear for the hearing. However, before
issuing a dismissal for this reason, the ALJ should ensure all attempts to contact the
claimant are clearly documented. 17 Our review of the claimants’ case folders did not
identify evidence of ODAR’s attempts to contact these seven claimants.18

We recommend that SSA remind hearing office employees to attempt to contact
claimants who do not acknowledge receipt of the hearing notice, as required, and
document in the claimant’s case folder all attempts to contact the claimant.

WITHDRAWAL DISMISSALS
We reviewed 50 cases dismissed in FY 2009 because the claimant withdrew the
hearing request. 19 However, one claimant’s case file did not contain evidence the
claimant wanted to withdraw the hearing request. 20 ODAR policy indicates that an ALJ
may dismiss a request for hearing, if asked for by the claimant who filed the hearing
request, any time before mailing notice of the decision if certain conditions are met. For
example, the hearing request may be dismissed if the claimant or claimant’s
representative has submitted a signed request to withdraw the hearing request or made
such a request for withdrawal orally on the record at the hearing. 21

Although we only identified one case with this condition, SSA may want to consider
reminding hearing office employees to document in the claimant’s case folder that the
claimant wanted to withdraw the hearing request.



15
     Form HA-504 Acknowledgement of Notice of Hearing.
16
     HALLEX I-2-3-20.C.
17
     HALLEX I-2-4-25.C.2.b.
18
   In six of the seven cases, the Order of Dismissal alleged contact attempts, but there was no evidence
of these attempts in the claimants’ case folders. Therefore, we cannot determine whether these contact
attempts were actually made.
19
   Of the 50 withdrawal dismissals we reviewed, 8 filed new applications for benefits. Two were allowed
benefits, one was denied, and five had decisions pending at the time of our review. In addition, two
claimants appealed to the Appeals Council where they had decisions pending at the time of our review.
20
  The Order of Dismissal alleged that the claimant’s representative requested the case be dismissed, but
there was no evidence of the request in the claimant’s case folder. Therefore, we cannot determine
whether this request was actually made.
21
     20 C.F.R. §§ 404.957 and 416.1457. HALLEX I-2-4-20.A.
Page 8 - The Commissioner

DISMISSAL RATES
We analyzed all dismissals issued in FY 2009 and found that dismissal rates varied
among ODAR regions, hearing offices, and ALJs. 22 First, we found that dismissal rates
varied among ODAR’s 10 regions. Specifically, dismissal rates ranged from a low of
12 percent in the Atlanta Region to a high of 18 percent in the Kansas City Region (see
Table 2).

                                              Table 2
                                 Percent of Dismissals by Region 23
                                      Number of        Number of                Dismissal
                    Region
                                    Dispositions24    Dismissals 25               Rate
               Kansas City                31,463                   5,679           18%
               Philadelphia               74,289                 11,850            16%
               Boston                     22,866                   3,679           16%
               San Francisco              65,476                 10,253            16%
               New York                   63,444                   9,443           15%
               Chicago                    94,614                 13,999            15%
               Denver                     17,675                   2,443           15%
               Seattle                    17,940                   2,668           14%
               Dallas                     89,058                  11950            13%
               Atlanta                   174,838                  21205            12%

We also found wide variances in dismissal rates within regions (see Table 3). For
example, one hearing office in the Philadelphia Region had a dismissal rate of
10 percent, while another hearing office in the region had a dismissal rate of 25 percent.


22
   We analyzed all dismissals issued in FY 2009 except the 15,165 favorable dismissals (see
Appendix C). Favorable dismissals are typically issued under SSA’s Informal Remand initiative. Under
this initiative, cases are screened and remanded to the DDS to determine whether an allowance can be
issued without a hearing. If the DDS can issue an allowance, a dismissal is issued at the hearing level.
According to SSA, the Informal Remand initiative could also impact region and hearing office dismissal
rates. For example, if a particular state had a lower or higher number of allowances after informal
remands, these numbers would have an impact on the dismissal rates for a particular region or hearing
office. Therefore, we excluded favorable dismissals from this analysis.
23
  This table does not include 9,162 dispositions, including 1,236 dismissals, issued by National Hearing
Centers or the National Screening Unit. These offices hold video hearings or issue on the record
decisions to assist hearing offices across the country.
24
   The data file we received from ODAR’s CPMS contained slightly fewer cases than ODAR identified in
its workload reports for FY 2009. However, this difference is immaterial.
25
   The number of dismissals includes all cases with a dismissal. Therefore, if a concurrent Title II and XVI
case had a favorable decision on one Title and a dismissal on the other Title; we counted the case as a
dismissal. According to SSA, this could have had an impact on dismissal rates by region and hearing
office since dismissals on concurrent cases are much more common than other dismissals. Specifically,
any region or hearing office that processed more than the average number of dismissals on concurrent
cases would most likely have a higher dismissal rate. However, we did not perform analysis to determine
the impact dismissals on concurrent cases had on dismissal rates by region or hearing office.
Page 9 - The Commissioner

In fact, the Philadelphia-East, Pennsylvania, Hearing Office had the highest dismissal
rate in the Nation at 25 percent. 26

                                            Table 3
                    High and Low Dismissal Rates per Hearing Office by Region
                                            Hearing Office Dismissal Rates
                          Region
                                                High                Low
                   Philadelphia                          25%               10%
                   San Francisco                         23%               11%
                   Boston                                23%               14%
                   Atlanta                               22%                7%
                   Kansas City                           21%               13%
                   Chicago                               21%               10%
                   Dallas                                20%                9%
                   New York                              19%                5%
                   Denver                                19%               11%
                   Seattle                               15%               10%

Finally, we identified a wide variance in dismissal rates by ALJ. Although 95 percent of
ALJs had dismissal rates of 25 percent or less, the dismissal rates by ALJ varied from
0 to 60 percent. Of the 1,176 ALJs in our review, 64 had dismissal rates between 26
and 60 percent. 27 We are unaware of any reasons why these ALJs would have
disproportionately high dismissal rates.

ODAR stated that scientific or statistical data do not exist to support an explanation of
dismissal rate variances. Although ODAR stated economic and demographic factors
may explain the variances, it did not expand on those factors or how they impact
variances in dismissal rates. We recommend that SSA determine whether factors are
present that explain variances in dismissal rates among ODAR’s regions, hearing
offices, and ALJs.

CONCLUSION AND RECOMMENDATIONS
We found that there were areas where improvements could be made for dismissing
hearing requests. Improvements were needed most in the area of untimely hearing
request dismissals. We also found wide variances in dismissal rates among ODAR’s
regions, hearing offices, and ALJs. While variations in dismissal rates do not
necessarily indicate improper dismissals, SSA does not have scientific or statistical data
that explains the dismissal rate variances.




26
     See Appendix D for dismissal rates for all hearing offices.
27
 ODAR reports 1,182 ALJs in FY 2009. However, we limited this analysis to ALJs that issued 100 or
more dispositions in FY 2009 to ensure the ALJs processed a sufficient number for accurate analysis.
Page 10 - The Commissioner

Therefore, we recommend that SSA:

1. Remind hearing office employees to send claimants a letter requesting an
   explanation for late filing, when required, and document in the claimant’s case folder
   that the letter was sent.

2. Remind ALJs to ensure hearing request dismissals are supported by complete
   rationales explaining why the ALJ found that the claimant had not shown good cause
   for late filing.

3. Establish controls to ensure hearing requests that appear to meet the criteria for
   dismissal are assigned to ALJs immediately for timely action.

4. Remind hearing office employees to attempt to contact claimants who do not
   acknowledge receipt of the hearing notice, as required, and document in the
   claimant’s case folder all attempts to contact the claimant.

5. Consider reminding hearing office employees to document in the claimant’s case
   folder that the claimant wanted to withdraw the hearing request.

6. Determine whether factors are present that explain variances in dismissal rates
   among ODAR’s regions, hearing offices, and ALJs.

AGENCY COMMENTS
SSA generally agreed with our recommendations. 28 See Appendix E for the full text of
SSA’s comments.




                                                        Patrick P. O’Carroll, Jr.




28
   In commenting on our draft report, SSA disagreed with Recommendation 3, stating that information
included in a September 29, 2010 memorandum from the Chief ALJ to hearing office employees
supported existing procedures. In the memorandum, the Chief ALJ reminded hearing office employees
that hearing requests appearing to meet the criteria for dismissal should be assigned to ALJs immediately
to avoid delays in processing. The Chief ALJ’s reminder satisfies the intent of our recommendation;
therefore, we consider SSA to have taken appropriate action on Recommendation 3.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Office of Disability Adjudication and Review Dismissal Types

APPENDIX D – Fiscal Year 2009 Dismissal Rates by Region and Hearing Office

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Acknowledgments
                                                           Appendix A

Acronyms
 ALJ       Administrative Law Judge

 C.F.R.    Code of Federal Regulations

 CPMS      Case Processing and Management System

 DDS       Disability Determination Services

 FY        Fiscal Year

 HALLEX    Hearings, Appeals, and Litigation Law Manual

 HOCALJ    Hearing Office Chief Administrative Law Judge

 ODAR      Office of Disability Adjudication and Review

 POMS      Program Operations Manual System

 SSA       Social Security Administration
                                                                              Appendix B

Scope and Methodology
To address Senator McCaskill’s request related to Office of Disability Adjudication and
Review (ODAR) hearing request dismissals, we:

•   Reviewed applicable Federal laws and regulations and parts of the Hearings,
    Appeals, and Litigation Law Manual related to administrative law judge (ALJ)
    hearings.

•   Reviewed prior Office of the Inspector General, Government Accountability Office,
    and Social Security Advisory Board reports related to the ALJ hearings process.

•   Obtained all dispositions in Fiscal Year 2009 from ODAR’s Case Processing and
    Management System (CPMS).

•   Selected a sample of 50 cases each of untimely hearing request, abandonment, and
    withdrawal dismissals. 1 We reviewed documentation in the claimant’s case folders
    to determine whether ODAR followed applicable policies and procedures in
    dismissing hearing requests.

•   Analyzed dismissal rates by ODAR region, hearing office, and ALJ level.

•   Obtained information from ODAR regarding policies and procedures for dismissing
    hearing requests.

Our work was conducted at the Office of Audit in Kansas City, Missouri, from
September 2009 through February 2010. The entity reviewed was ODAR. We
determined that the data used in this report were sufficiently reliable given the review
objective and their intended use. We conducted our review in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspections.




1
 We had to replace 2 untimely hearing request dismissals and 1 abandonment dismissal in each sample
of 50 dismissals. Though they were originally selected in our samples, they were replaced when we
discovered they appeared to be miscoded in ODAR’s CPMS. The untimely hearing request dismissals
should have been coded as administrative dismissals while the abandonment dismissal should have been
coded as an untimely hearing request dismissal.
                                                                                     Appendix C

Office of Disability Adjudication and Review
Dismissal Types

                                                                                            Number of
       Type of
                                           Dismissal Definition                             Dismissals
      Dismissal
                                                                                             FY 2009 1
                     The claimant did not appear for the hearing, and the
    Abandonment      administrative law judge (ALJ) did not find good cause for                46,675
                     failure to appear.
    Withdrawal       The claimant withdrew the hearing request.                                29,587
                     A lower level Social Security Administration (SSA)
    Favorable        component issued a revised favorable decision, rendering                  15,165
                     the need for a hearing moot.
    Untimely Hearing The hearing request was untimely, and the ALJ did not
                                                                                                 6,155
    Request          find good cause for late filing.
                       The Appeals Council remanded an earlier application for
    Other                                                                                        3,328
                       the same claim and time period.
    Administrative     The claimant did not have a right to a hearing.                           3,234
    Death              The claimant died.                                                        2,534
    Special            Dismissal code used under management direction.                           2,254
                       SSA made a previous determination on the same facts
    Res Judicata                                                                                   664
                       and issues. The previous determination became final.
    Abandonment        The claimant did not appear for the pre-hearing
                                                                                                    54
    Pre-hearing        conference.
    Improper Party     An improper party filed the hearing request.                                 39
    Total                                                                                     109,689




1
 The Office of Disability Adjudication and Review (ODAR) reported 103,071 dismissals in Fiscal
Year 2009. We identified more than the ODAR reported number of dismissals for two reasons related to
concurrent Title II and XVI cases. First, ODAR counts dispositions based on the Title XVI disposition.
Therefore, if the Title XVI decision in a concurrent case is favorable and the Title II disposition is a
dismissal, ODAR includes the case in the count of favorable decisions. However, we included the case
as a dismissal for our review. Second, concurrent cases can have different dismissal types for each title.
For example, the Title II disposition could be a withdrawal dismissal and the Title XVI disposition could be
a favorable dismissal. We counted each dismissal type for our analysis since each type has its own
criteria.
                                                                                     Appendix D

Fiscal Year 2009 Dismissal Rates by Region
and Hearing Office1
                                                 Number of                        Dismissal
                          Location                               Dismissals
                                                Dispositions                        Rate
              Boston Region                        22,866           3,679           16%
              Providence, RI                         2,613            592            23%
              Portland, ME                           2,961            499            17%
              Manchester, NH                         2,499            400            16%
              Boston, MA                             6,375            978            15%
              Springfield, MA                        3,090            456            15%
              Hartford, CT                           2,946            430            15%
              New Haven, CT                          2,372            324            14%
              Boston Regional Office Staff                10             0            0%
              New York Region                      63,444           9,443            15%
              Jericho, NY                            4,918            729            15%
              Syracuse, NY                           5,001            910            18%
              Bronx, NY                              4,622            736            16%
              Buffalo, NY                            6,540            960            15%
              Albany, NY                             4,932            604            12%
              New York, NY                           7,681          1,496            19%
              White Plains, NY                       2,516            488            19%
              Voorhees, NJ                           3,902            425            11%
              Brooklyn, NY                           7,266          1,326            18%
              Queens, NY                             3,118            507            16%
              Newark, NJ                             4,990            668            13%
              Ponce, PR                              1,260            182            14%
              San Juan, PR                           5,374            371             7%
              Mayaguez, PR                             904              41            5%
              New York Screening Unit                  420               0            0%




1
 This table does not include 9,162 dispositions, including 1,236 dismissals, issued by National Hearing
Centers or the National Screening Unit. These offices hold video hearings or issue on the record
decisions to assist hearing offices across the country. In addition, the number of dismissals includes all
cases with a dismissal. Therefore, if a concurrent case had a favorable decision on one Title and a
dismissal on the other Title, we counted the case as a dismissal.

                                                    D-1
                         Number of                  Dismissal
             Location                  Dismissals
                        Dispositions                  Rate
Philadelphia Region        74,289       11,850        16%
Philadelphia-E, PA         4,522         1,141        25%
Pittsburgh, PA             4,544         1,020        22%
Philadelphia, PA           4,844         1,031        21%
Elkins Park, PA            5,384         1,060        20%
Washington, D.C.           2,476           376        15%
Baltimore, MD              4,732           802        17%
Morgantown, WV             3,463           558        16%
Harrisburg, PA             5,647           903        16%
Johnstown, PA              2,772           343        12%
Cranberry, PA              4,644           705        15%
Roanoke, VA                3,978           589        15%
Wilkes-Barre, PA           4,798           708        15%
Dover, DE                  2,239           320        14%
Norfolk, VA                3,194           453        14%
Richmond, VA               3,514           459        13%
Charlottesville, VA        2,849           334        12%
Huntington, WV             5,112           509        10%
Charleston, WV             5,577           539        10%
Atlanta Region           174,838        21,205        12%
Miami, FL                  3,279           735        22%
Greensboro, NC             5,894           621        11%
Atlanta-N, GA              5,597           559        10%
Florence, AL               3,657           597        16%
Montgomery, AL             6,026         1,106        18%
Jacksonville, FL           6,454         1,000        15%
Charlotte, NC              6,990           962        14%
Mobile, AL                 6,953         1,061        15%
Charleston, SC             4,923           551        11%
Raleigh, NC                6,954           879        13%
Nashville, TN              4,845           449         9%
Orlando, FL                5,662           731        13%
Fort Lauderdale, FL        7,381         1,011        14%
Columbia, SC               5,156           569        11%
Memphis, TN                5,506           842        15%
Tampa, FL                  7,884           929        12%
Savannah, GA               4,856           564        12%
Jackson, MS                4,731           702        15%
Greenville, SC             6,618           635        10%
Birmingham, AL             8,908         1,132        13%

                           D-2
                                 Number of                  Dismissal
              Location                         Dismissals
                                Dispositions                  Rate
Middlesboro, KY                     1,730          239        14%
Knoxville, TN                      6,054           570         9%
Chattanooga, TN                    6,036           532         9%
Atlanta, GA                       10,132         1,086        11%
Paducah, KY                        2,322           272        12%
Lexington, KY                      5,606           646        12%
Louisville, KY                     4,192           460        11%
Tupelo, MS                         4,463           452        10%
Hattiesburg, MS                    5,489           550        10%
Macon, GA                          4,825           358         7%
Kingsport, TN                      5,715           405         7%
Chicago Region                    94,614        13,999        15%
Columbus, OH                       4,569           693        15%
Grand Rapids, MI                   4,705           781        17%
Dayton, OH                         2,871           318        11%
Oak Park, MI                       6,058         1,002        17%
Detroit, MI                        5,515         1,108        20%
Oak Brook, IL                      5,036         1,072        21%
Cleveland, OH                      6,702           845        13%
Cincinnati, OH                     4,756           750        16%
Milwaukee, WI                      5,211           982        19%
Flint, MI                          3,667           559        15%
Lansing, MI                        3,719           581        16%
Minneapolis, MN                    7,678         1,114        15%
Chicago Video Center                 899           132        15%
Indianapolis, IN                   5,665           775        14%
Peoria, IL                         3,927           552        14%
Chicago, IL                        4,994           685        14%
Evanston, IL                       5,238           671        13%
Madison, WI (Satellite)              965           108        11%
Orland Park, IL                    5,754           627        11%
Evansville, IN                     3,082           316        10%
Fort Wayne, IN                     3,232           328        10%
Chicago Regional Office Staff            2           0         0%
Chicago Screening Unit               369             0         0%
Dallas Region                     89,058        11,950        13%
Metairie, LA                       3,978           795        20%
New Orleans, LA                    5,319           962        18%
Dallas-N, TX                       7,199         1,156        16%
Little Rock, AR                    7,649           691         9%

                                   D-3
                                Number of                  Dismissal
            Location                          Dismissals
                               Dispositions                  Rate
Dallas-DT, TX                      6,960        1,023        15%
Houston, TX                       5,473           793        14%
Houston-DT, TX                    4,915           707        14%
Alexandria, LA                    6,209           865        14%
Shreveport, LA                    4,688           659        14%
Fort Smith, AR                    3,054           409        13%
Tulsa, OK                         5,628           752        13%
Fort Worth, TX                    4,996           641        13%
McAlester, OK                     1,305           151        12%
San Antonio, TX                   9,120         1,049        12%
Oklahoma City, OK                 6,648           719        11%
Albuquerque, NM                   5,683           578        10%
Dallas Regional Office Staff        208             0         0%
Dallas Screening Unit                   26          0         0%
Kansas City Region               31,463         5,679        18%
Kansas City, MO                   5,275         1,121        21%
Omaha, NE                         2,475           425        17%
Creve Coeur, MO                   6,621         1,170        18%
Wichita, KS                       4,732           810        17%
Springfield, MO                   2,611           432        17%
St. Louis, MO                     6,125         1,246        20%
West Des Moines, IA               3,624           475        13%
Denver Region                    17,675         2,668        15%
Denver, CO                        5,232         1,006        19%
Colorado Springs, CO              3,359           547        16%
Billings, MT                      2,809           436        16%
Salt Lake City, UT                3,541           385        11%
Fargo, ND                         2,734           294        11%
San Francisco Region             65,476        10,253        16%
Los Angeles-DT, CA                3,842           900        23%
Downey, CA                        2,543           574        23%
Pasadena, CA                      2,561           544        21%
Los Angeles-W, CA                 3,845           785        20%
San Diego, CA                     3,229           641        20%
Oakland, CA                       3,289           545        17%
San Bernardino, CA                4,647           733        16%
Las Vegas, NV                     1,588           229        14%
Orange, CA                        3,895           595        15%
Long Beach, CA                    4,022           579        14%
Phoenix, AZ                       5,029           702        14%

                                  D-4
                                Number of                  Dismissal
          Location                            Dismissals
                               Dispositions                  Rate
San Jose, CA                       2,763          360        13%
San Francisco, CA                 3,777           507        13%
Stockton, CA                      3,426           454        13%
Sacramento, CA                    5,724           729        13%
Santa Barbara, CA                 1,639           209        13%
Fresno, CA                        3,695           450        12%
Tucson, AZ                        2,976           370        12%
San Rafael, CA                    2,282           267        12%
Honolulu, HI                        701            80        11%
San Francisco Screening Unit            3           0         0%
Seattle Region                   17,940         2,443        14%
Seattle, WA                       7,990         1,215        15%
Eugene, OR                        2,660           388        15%
Portland, OR                      4,061           512        13%
Spokane, WA                       3,229           328        10%




                                  D-5
                  Appendix E

Agency Comments
E-2
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT
EVALUATION REPORT, “OFFICE OF DISABILITY ADJUDICATION AND REVIEW
HEARING REQUEST DISMISSALS” (A-07-10-20171)

We offer the following responses to your recommendations and other technical comments:

COMMENTS ON RECOMMENDATIONS

Recommendation 1

Remind hearing office employees to send claimants a letter requesting an explanation for late
filing, when required, and document in the claimant’s case folder that the letter was sent.

Response

We agree. In his September 29, 2010 memorandum, our Chief Administrative Law Judge
(CALJ) included this reminder to hearing office employees.

Recommendation 2

Remind ALJs to ensure hearing request dismissals are supported by complete rationales
explaining why the ALJ found that the claimant has not shown good cause for late filing.

Response

We agree. The CALJ included this in his September 29, 2010 memorandum.

Recommendation 3

Establish controls to ensure hearing requests that appear to meet the criteria for dismissal are
assigned to ALJs immediately for timely action.

Response

We disagree. The CALJ’s September 29, 2010 memorandum serves to support our existing
procedures, and we do not need to establish additional controls.




                                                E-3
Recommendation 4

Remind hearing office employees to attempt to contact claimants who do not acknowledge
receipt of the hearing notice, as required, and document in the claimant’s case folder all attempts
to contact the claimant.

Response

We agree. The CALJ’s September 29, 2010 memorandum included this reminder.

Recommendation 5

Consider reminding hearing office employees to document in the claimant’s case folder that the
claimant wanted to withdraw the hearing request.

Response

We agree. The CALJ’s September 29, 2010 memorandum included this reminder.

Recommendation 6

Determine whether factors are present that explain variances in dismissal rates among ODAR’s
regions, hearing offices, and ALJs.

Response

We agree in principle, and we are taking the following actions:

We just started a study of ALJ dispositions, including dismissals. We will draw samples and
review dispositions at the national and regional level, but not at the ALJ level. We plan to
complete this study by summer 2011, and it may provide some insight concerning the variances
you describe. We will make that assessment when we conclude the study.

In addition, the Office of Appellate Operations, which supports our Appeals Council (AC), is
collecting structured data regarding each case the AC reviews, including data on dismissals. We
may be able to use that data in the future when considering other studies.

Irrespective of any studies we may do, it is important to understand that many factors drive
variances. These factors, many outside of an ALJ’s control, may include the number of claims
filed, the number of informal remands granted by the State agency, and workload transfers
between regions. Demographics and economic factors also affect the number and type of claims
filed, which ultimately can affect dismissal rates.




                                                E-4
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division

   Tonya Eickman, Audit Manager

Acknowledgments

In addition to those named above:

   Karis Crane, Auditor

For additional copies of this report, please visit our Website at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-10-20171.
                                 DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
